                               CLOSEOUT FOR M-91040019

NSF. brouht an allegation of misconduct in science to OIG's attention. He had received the allegation




proposals, he plagiarized ideas fiom them.

        The complainant told OIG that, prior to the subject's submission of his NSF proposal, she had
been to the subject's institution to present a seminar on her research and while there she had met with
him and discussed in detail her research program and plans and provided him with reprints and
preprints of her work. The complainant explained that she was aware at the time of the meeting that
the subject planned to initiate research in her area of study, and that he already had the necessary
laboratory equipment to do so. The complainant said that she probably, unintentionally, influenced the
subject's research project as a result of the meeting.

         At OIG's request, the complainant provided annotated copies of three of her proposals (the
NSF fbnded proposal, the ONR proposal, and the PRF proposal) with the alleged plagiarized ideas
from each cross-referenced to the subject's NSF proposal. OIG compared the complainant's three
annotated proposals and her declined NSF proposal with the subject's NSF proposal. We found that
the subject's proposal contained two citations for articles written by the complainant and a sentence
describing the complainant's research work. We also noted that the subject's proposal contained
several approaches that were similar to those described in the complainant's proposals.


                                             Page 1 of 2                                      W1-19
                                CLOSEOUT FOR M-91040019

        OIGtsexamination of NSF's proposal and award files showed that the subject had not reviewed
either of the complainant's NSF proposals. We learned that the complainant's PRF proposal had not
been reviewed by the subject. Further, OIG learned that the complainant's ONR proposal had not been
externally reviewed. The subject did not have access to any of the ideas in these four proposals
through the review process.

         OIG concluded that the subject had not reviewed the four proposals submitted by the
complainant. OIG could not exclude the possibiity that he could have obtained a publicly available
copy of her funded NSF proposal. However, OIG concluded that the complainant had contributed to
the subject's thoughts about the research project described in his NSF proposal when she shared
reprints, preprints and other information about her work with the subject. She knew he was pursuing
research in her area of study. Typically, scientists pursue their interests in diierent research areas via
discussions and meetings where information can be readily and easily shared, similar to what the subject
did in this case. Such exchanges are important and generally accepted as part of the advancement of
science. There was no evidence that the subject had developed ideas s i i a r to the complainant's by
methods other than those commonly accepted as part of the scientific process. OIG concluded that
there was no substance to the allegation of intellectual t . .

        This inquiry was closed and no further action will be taken.

cc:     StafTScientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                               Page 2 of 2
